<html>
<title> - UNMANNED AERIAL VEHICLES AND THE NATIONAL AIRSPACE SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
        UNMANNED AERIAL VEHICLES AND THE NATIONAL AIRSPACE SYSTEM

=======================================================================

                                (109-60)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 29, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-275                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

?

                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Cassidy, Radm Thomas J., Jr. (Ret.), President, General Atomic 
  Aeronautical Systems...........................................    22
 Cebula, Andrew, Senior Vice President, Government and Technical 
  Affairs, Aircraft Owners and Pilots Association (AOPA).........    22
 Heinz, Mike, Executive Director, Unite UAV National Industry 
  Team (UNITE)...................................................    22
 Kostelnik, Michael, Assistant Commissioner, Customs and Border 
  Protection, Office of Air and Marine, Department of Homeland 
  Security.......................................................     6
 Mealy, Jay, Programs Director, Academy of Model Aeronautics.....    22
 Owen, Dr. Robert C., Professor, Department of Aeronautical 
  Science, Embry-Riddle Aeronautical University..................    22
 Pease, Gerald F. (Fred), Jr., Executive Director, U.S. 
  Department of Defense, Policy Board on Federal Aviation........     6
 Sabatini, Nicholas, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     6
 Weatherington, Dyke D., Deputy, Unmanned Aerial Systems (UAS) 
  Planning Task Force, Office of the Under Secretary of Defense 
  for Acquisition, Technology and Logistics Defense Systems-Air 
  Warfafe, U.S. Department of Defense............................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boswell, Hon. Leonard, of Iowa...................................    35
Carnahan, Hon. Riss, of Missouri.................................    37
Costello, Hon. Jerry F., of Illinois.............................    62
Johnson, Hon. Eddie Bernice, of Texas............................    78
Marchant, Hon. Kenny, of Texas...................................    91
Oberstar, Hon. James L., of Minnesota............................   101

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Cassidy, Radm Thomas J., Jr. (Ret.).............................    38
 Cebula, Andrew..................................................    51
 Heinz, Mike.....................................................    64
 Kostelnik, Michael..............................................    81
 Mealy, Jay......................................................    92
 Owen, Dr. Robert C..............................................   103
 Sabatini, Nicholas..............................................   123
 Weatherington, Dyke D...........................................   133

                       SUBMISSIONS FOR THE RECORD

 Cassidy, Radm Thomas J., Jr. (Ret.), President, General Atomic 
  Aeronautical Systems, responses to questions...................    42
 Cebula, Andrew, Senior Vice President, Government and Technical 
  Affairs, Aircraft Owners and Pilots Association (AOPA), 
  responses to questions.........................................    57
 Heinz, Mike, Executive Director, Unite UAV National Industry 
  Team (UNITE), responses to questions...........................    69
 Kostelnik, Michael, Assistant Commissioner, Customs and Border 
  Protection, Office of Air and Marine, Department of Homeland 
  Security, responses to questions...............................    88
 Mealy, Jay, Programs Director, Academy of Model Aeronautics, 
  responses to questions.........................................    99
 Owen, Dr. Robert C., Professor, Department of Aeronautical 
  Science, Embry-Riddle Aeronautical University, responses to 
  questions......................................................   115
 Pease, Gerald F. (Fred), Jr., Executive Director, U.S. 
  Department of Defense, Policy Board on Federal Aviation, 
  responses to questions.........................................   120
 Sabatini, Nicholas, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, responses to questions........   130
 Weatherington, Dyke D., Deputy, Unmanned Aerial Systems (UAS) 
  Planning Task Force, Office of the Under Secretary of Defense 
  for Acquisition, Technology and Logistics Defense Systems-Air 
  Warfafe, U.S. Department of Defense, responses to questions....   147

                         ADDITION TO THE RECORD

Healing, Hon. Richard F., P.E., Former Member, National 
  Transportation Safety Board, statement.........................   155


        UNMANNED AERIAL VEHICLES AND THE NATIONAL AIRSPACE SYSTEM

                              ----------                              


                       Wednesday, March 29, 2006

        House of Representatives, Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, 
            Washington, D.C.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the committee] presiding.
    Mr. Mica. Good morning. I would like to this hearing of the 
House Aviation Subcommittee to order and welcome everyone this 
morning. I think we have an interesting hearing, a little bit 
different, and the title of the hearing is ``Unmanned Aerial 
Vehicles (UAVs) and the National Airspace System.''
    The order of business today is going to be opening 
statements by members, then we have two panels of witnesses we 
will recognize. So we will launch our hearing here and I will 
start with my opening statement and we will begin.
    Welcome, everyone. Today's hearing is going to be a little 
bit different, as I said, and, like the hearing on commercial 
space transportation just over a year ago, launches a new era 
in commercial transportation oversight.
    We have just come to the end of 100 years of manned flight, 
and now we are entering a new century where unmanned aircraft 
will be used in ways that, in fact, defy even today's 
imagination.
    I was going to fly this thing this morning. Somebody took 
the battery out of it. We got one of these--yes, a little bit 
of a wounded prop. But the thing actually does fly in a remote 
fashion. And it is not outside the realm of possibility that 
sometime in the future we will see pilots located at remote 
consoles as they fly cargo and passengers through an aviation 
system that is yet to be defined.
    From the early days of flight to the development of jet 
engines, to the introduction of helicopters and now unmanned 
aerial vehicles (UAVs), and also unmanned aerial systems, 
progress continues and the safe integration of new technologies 
has to be assured in our national airspace; and that is part of 
the reason that we are having this hearing today.
    Well, historically, UAS, the systems have been used 
primarily by the Defense Department and DOD in military 
settings, and sometimes outside the United States border, there 
is growing demand for both government and commercial operations 
of unmanned aircraft in our integrated national airspace.
    Federal agencies such as the Customs and Border Patrol 
Service, the Drug Enforcement Agency, the Federal Bureau of 
Investigation, the Transportation Security Administration, the 
Federal Emergency Management Agency, and State and local law 
enforcement agencies are all interested in utilizing UAVs and 
the UAS system in our national airspace; and, of course, that 
creates a lot of questions and problems and airspace issues. 
Additionally, UAVs are also an emerging segment of our 
commercial aviation industry.
    These advancements in aviation technology demand an ever-
changing and evolving aviation system. Therefore, today, our 
subcommittee will learn about the development and the use of 
unmanned aerial systems. We will also hear about the Federal 
Aviation Administration's role in safety over flight, and the 
safe introduction of UAS into the integrated national airspace 
system.
    We all understand that the FAA has sole authority over the 
safe and efficient use of our national airspace and is 
responsible for overseeing the safety of our civil airspace, 
including the operations by military, government, private 
pilots, and commercial entities.
    In considering the operation of unmanned aircraft in the 
integrated national airspace, the FAA has identified two major 
safety concerns that need to be addressed: first, the need for 
proven unmanned aerial systems command and control 
redundancies. And there should be--if there is a disruption, 
rather, in communications, or should the operator lose contact 
with the vehicle, what happens? Secondly, the need for 
reliable, as they say, detect and avoid capability so that 
unmanned aerial systems and vehicles in the air can sense and 
also avoid other aircraft. These are a couple of essential 
safety responsibilities and jurisdictional responsibilities for 
the FAA.
    The FAA has stated that unmanned aircraft will need to 
achieve the same level of safety as a manned aircraft. Such a 
level of safety requires further technological advancements, 
and maybe we will hear a little bit today about what is in 
store in regard to these new systems. Until this level of 
safety is achieved, however, the FAA has been working with DOD, 
the Border Patrol, and other government agencies to allow 
limited use of these unmanned aerial vehicles and systems in 
our national airspace.
    The FAA has issued Certificates of Authority (COAs) and 
created Temporary Flight Restrictions (TFRs) to allow public or 
governmental operations of UAS in our national airspace. The 
FAA has also issued experimental certificates to allow limited 
commercial operations in our national airspace. But these 
processes deal with only a case-by-case issue or basis, and 
they can take time and place additional demands on limited FAA 
resources.
    The number of requests to operate unmanned aircraft in our 
national airspace is growing, particularly for operations in 
support of homeland and national security. While the FAA has 
worked hard to expedite Certificates of Authority and that 
review process, ultimately, a longer term solution is probably 
going to be required. Therefore, the FAA has asked the RTCA, 
Inc., which is a private not-for-profit corporation that 
develops consensus-based recommendations for the FAA on certain 
technical issues--they have asked the RTCA, Inc. to help 
develop standards for operation of the UAVs and UAS systems.
    The RTCA Special Committee 203 will answer two key 
questions: How will the systems handle command and control, 
these unmanned aerial systems handle those two issues? And how 
will they detect and avoid other aircraft? Both of these 
questions are dependent on the development of technology and 
operational procedures, and some of those we will hear about.
    Certainly, supporting this emerging industry is in the best 
interest of the United States, especially in light of growing 
homeland and national security demands, and also in light of 
increasing international competition in this area. At the same 
time, ensuring that the FAA fulfills its oversight 
responsibility with regard to safety is certainly a priority 
for this subcommittee.
    Like commercial space transportation, the integration of 
aerial systems that are unmanned will create new challenges to 
the safe and efficient use of our national airspace, and also 
require our FAA to address a whole host of issues regarding use 
of the national airspace by these new unmanned vehicles and 
aerial systems.
    We welcome the witnesses. We appreciate the time they have 
taken to come testify before us today, and we look forward to 
hearing from all of them, and am please to yield to Mr. Boswell 
at this time.
    Mr. Boswell. Well, thank you, Mr. Chairman. And I want to 
thank Ranking Member Costello for having this hearing. Mr. 
Costello is in a markup in another committee, I understand, so 
I am privileged to be here with you.
    I do feel privileged in this sense. We all have our 
history, and some of my history was in charge of the drones 
flying out of Finton Army Airfield in Germany in the 1960s. 
Some of you might remember some of those. Those were pretty 
yellow, pretty antique-ish, I guess, compared to what we are 
doing today, but I did do that. And then I had the assignment 
for a time flying the SLAR, the side-looking radar, under L-
23s, the twin Bonanza, along the East German border, trying to 
keep track of the Russian movements and so on. And, of course, 
we were in the soup most of the time flying and we were 
depending on radio compass, you know, to ADFD to track, and the 
Russians figured out a way to overpower that and make their 
needles swing to the right. And then if you slipped over there, 
they would just shoot you down because you were violating their 
space. So we were pretty attentive to making sure that that 
needle wasn't doing an unexpected swing. If it did, we turned a 
240 and left the area.
    But those are kind of exciting times for the young aviator 
that I was at that time.
    But, anyway, today we are here to talk about unmanned 
aerial vehicles, and I do associate myself with what the 
Chairman said very enthusiastically, but it is timely because 
government and commercial operators are starting to compete for 
the use of our national airspace. UAVs come in all shapes and 
sizes, from as little as four pounds. In fact, even this 
Batcat--I just got a copy of their little information--is a one 
pounder, I understand. And they may be programmed to work 
autonomously or by a computer operator.
    UAVs are currently being used for military, law 
enforcement, homeland security, firefighting, weather 
prediction, and tracking purposes. According to a recent 
Aviation Week & Space Technology article, the UAV market is 
expected to be worth $7.6 billion through 2010, with the 
majority of UAVs being purchased by the U.S. We must ensure 
that this emerging industry receives the proper Federal safety 
oversight without discouraging the development.
    The increasing use of UAVs in the national airspace 
represents several challenges for the FAA and the community. Of 
paramount importance, of course, is safety. The FAA is the sole 
authority--is the sole authority, as I understand it--charged 
with controlling the safe and efficient use of the national 
airspace. It is my understanding that adequate detect, sense 
and avoid technology that will enable UAVs to avoid other 
aircraft is probably 20 years away. It is years away, anyway. 
Therefore, safety must be their top priority as the FAA makes 
decisions regarding UAV airworthiness and integration into 
operations of our national airspace.
    Moreover, FAA has recently accommodated the use of UAVs by 
implementing large-scale flight restrictions. An example: they 
established a Temporary Flight Restriction (TFR) along the 
U.S.-Mexico border at Arizona-New Mexico to allow the 
Department of Homeland Security's Customs and Border Protection 
to conduct UAV border surveillance without colliding with other 
operators in the area. The TFR is 300 nautical miles long and 
17 miles wide; has an effect of 12,000 to 14,000 feet, and is 
active from 5 to 7 daily. In my view, the use of TFRs, 
especially one that is large in scale to allow for UAV 
operation, is not a workable long-term solution. It is going to 
be a challenge for us, I understand that, and I hope that we 
all do.
    I am pleased that Mr. Sabatini is here to discuss the 
agency's efforts in the short term to ensure the safety of UAVs 
that currently fly in the space, as well as any long-term 
solutions to allow for certification of mainstream integration 
of these vehicles with other commercial use in airspace 
without--without--resorting to widespread use of TFRs.
    The Department of Defense and Homeland Security, the two 
primary government users of UAVs, must also work in concert 
with the FAA to ensure both the safety of UAVs operating in the 
space and that our military and homeland security needs for UAV 
operations are being met.
    Today we have representatives from both DOD and CBP to 
discuss these efforts, so I am looking forward to hearing from 
our witnesses, on the second panel as well, regarding future 
commercial applications, the challenges faced by these emerging 
industry, as well as some of the potential procedural and 
technological solutions that will enable the full and safe 
integration of these in the space.
    Thank you, Mr. Chairman. I look forward to your comments. 
And I will just tell you up front I am very, very concerned 
about general aviation. It is a big part of our economy and 
there is a big need for it, and I hope you keep that in mind 
every time you sit down and discuss this, as well as the other 
needs. Thank you very much.
    Mr. Mica. Thank you.
    Any other members have opening statements? None on this 
side.
    Ms. Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman. I am due in 
the same markup that Mr. Costello is in, so I might leave out 
shortly. But I want to thank you and the Ranking Member for 
holding this hearing this morning on the issue of unmanned 
aerial systems.
    Without question, the usage of unmanned vehicles in the 
areas of surveillance and recognizance missions has proven to 
be an invaluable tool in the missions of our military. The U.S. 
military has demonstrated that the UAV development serves a 
cost-effective answer to a number of modern military needs. In 
addition to UAV deployment by the U.S. military, the Congress 
has also called for the usage of UAVs to support homeland 
security and other law enforcement related missions.
    Now it appears that there are various segments within the 
commercial aviation industry interested in utilizing UAVs in 
the national airspace system. Obviously, this type of demand 
for UAVs begs the question that if commercial usage of UAVs are 
permitted, how do we, as policymakers, ensure that the 
necessary safeguards are in place for the protection of public 
safety?
    It is my understanding that FAA has identified two primary 
safety issues with regard to the UAVs' operation in the 
commercial aviation industry: one, the need for UAV command and 
control redundancy should a disruption in communication arise; 
and, two, the need for a reliable detect and avoid capability 
so that the UAVs can sense and avoid other aircraft.
    I welcome our witnesses this morning and look forward to 
gaining additional insight into whether or not the FAA feels 
expanding commercial UAV usage is a good idea. And, if so, what 
are their plans to address safety and oversight issues as they 
relate to the UAVs.
    Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Additional members with opening statements?
    [No response.]
    Mr. Mica. We have no additional members, so we will turn to 
our first panel of witnesses. And we have approximately four 
witnesses, I believe, on the first panel. Let me introduce 
them. We have first Mr. Nicholas Sabatini, who is the Associate 
Administrator for Aviation Safety with FAA. We have Mr. Gerald 
F. (Fred) Pease Jr., Executive Director of the United States 
Department of Defense, Policy Board on Federal Aviation. We 
have Mr. Dyke D. Weatherington, Deputy, Unmanned Aerial Systems 
(UAS) Planning Task Force. He is with the Office of Under 
Secretary of Defense for Acquisition Technology and Logistics 
Defense Systems and Air Warfare with the United States 
Department of Defense. And then our last witness on that panel 
is Mr. Michael Kostelnik, and he is the Assistant Commissioner 
for Customs Border Protection, Office of Air and Marine 
Activities, in the Department of Homeland Security.
    So I would like to welcome all of our witnesses. We ask if 
you have a lengthy statement or information that you would like 
to have made part of the official record of these proceedings, 
to request so through the Chair. Hopefully, you can summarize 
in approximately five minutes your testimony. So we welcome 
you.
    Mr. Sabatini is no stranger to this panel, and welcome him 
back and recognize him at this time. You are recognized.

  TESTIMONY OF NICHOLAS SABATINI, ASSOCIATE ADMINISTRATOR FOR 
   AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION; MICHAEL 
     KOSTELNIK, ASSISTANT COMMISSIONER, CUSTOMS AND BORDER 
 PROTECTION, OFFICE OF AIR AND MARINE, DEPARTMENT OF HOMELAND 
   SECURITY; GERALD F. (FRED) PEASE JR., EXECUTIVE DIRECTOR, 
 UNITED STATES DEPARTMENT OF DEFENSE, POLICY BOARD ON FEDERAL 
 AVIATION; AND DYKE D. WEATHERINGTON, DEPUTY, UNMANNED AERIAL 
    SYSTEMS (UAS) PLANNING TASK FORCE, OFFICE OF THE UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS 
   DEFENSE SYSTEMS-AIR WARFARE, UNITED STATES DEPARTMENT OF 
                            DEFENSE

    Mr. Sabatini. Good morning, Chairman Mica, Congressman 
Boswell, and members of the subcommittee. I am pleased to 
appear before you today to discuss a subject that serves to 
remind us that the future is now. The development and use of 
unmanned aircraft (UAs) is the next great step forward in the 
evolution of aviation. As it has throughout its history, FAA is 
prepared to work with government and industry to ensure that 
these aircraft are both safe to operate and operated safely. 
The extremely broad range of UAs makes their successful 
integration into the national airspace system (the NAS) a 
challenge, but certainly one worth meeting. To meet this need, 
the FAA has established an Unmanned Aircraft Program Office 
which has the expressed purpose of ensuring a safe integration 
of UAs into the NAS.
    At the outset, you must understand that UAs cannot be 
described as a single type of aircraft. UAs can be vehicles 
that range from a 12-ounce hand launched model to the size of a 
737 aircraft. Obviously, the size of the UA impacts the 
complexity of its system design and capability. Therefore, each 
different type of UA has to be evaluated separately, with each 
aircraft's unique characteristics being considered before its 
integration into the NAS can be accomplished. FAA is currently 
working with both other government agencies and private 
industry on the development and use of UAs.
    The number of government agencies that want to use UAs in 
support of their mandate is increasing.
    In working with government agencies, the FAA issues a 
Certificate of Authorization (a COA), that permits the agency 
to operate a particular UA for a particular purpose in a 
particular area. In other words, FAA works with the agency to 
develop conditions and limitations for UA operations to ensure 
they do not jeopardize the safety of other aviation operations. 
The objective is to issue a COA with terms that ensure an 
equivalent level of safety as manned aircraft. Usually, this 
entails making sure that the UA does not operate in a populated 
area and the aircraft is observed either by someone in a manned 
aircraft or someone on the ground. In the interest of national 
security, and because ground observers were not possible, the 
FAA worked with DHS to facilitate UA operations along the 
Arizona-New Mexico border with Mexico. In order to permit such 
operations, the airspace is segregated to ensure system safety 
so these UA flights can operate without an observer being 
physically present to observe the operation. The FAA is working 
closely with DHS to minimize the impact of the segregation 
methods on other aviation operations. In the past two years, 
the FAA has issued over 50 COAs. With the purposes for which 
UAs are used expanding steadily, the FAA expects to issue a 
record number of COAs this year.
    FAA's work with private industry is slightly different. 
Companies must obtain an airworthiness certificate by 
demonstrating that their aircraft can operate safely within an 
assigned flight test area and cause no harm to the public. They 
must be able to describe their unmanned aircraft system, along 
with how and where they intend to fly. This is documented by 
the applicant in what we call a program letter. An FAA team of 
subject matter experts reviews the program letter and, if the 
project is feasible, performs an onsite review of the ground 
system and unmanned aircraft. If the results of the onsite 
review are acceptable, there are negotiations on operating 
limitations. After the necessary limitations are accepted, FAA 
will accept an application for an experimental airworthiness 
certificate, which is ultimately issued by the local FAA. The 
certificate specifies the operating restrictions applicable to 
that aircraft. We have received 14 program letters for UAs 
ranging from 39 to over 10,000 pounds. We have issued two 
experimental certificates, one for General Atomics' Altair and 
one for Bell-Textron's Eagle Eye. We expect to issue at least 
two more experimental certificates this year.
    Each UA FAA considers, whether it be developed by 
government or industry, must have numerous fail safes for loss 
of command and control link and system failures. Information 
must be provided to FAA that clearly establishes that the risk 
of injury to persons on the ground is highly unlikely in the 
even of a loss of link. Because FAA recognizes the seriousness 
of this situation, we are predominantly limiting UA operations 
to unpopulated areas. Should loss of link occur, the pilot must 
immediately alert air traffic control and inform the 
controllers of the loss of control link. Information about what 
the aircraft is programmed to do and when it is programmed to 
do it is pre-coordinated with the affected ATC facilities in 
advance of the flight so that FAA can take appropriate actions 
to mitigate the situation and preserve safety.
    The COA and Experimental Airworthiness Certificate 
processes are designed to allow a sufficiently restricted 
operation to ensure a safe environment, while allowing for 
research and development until such time as pertinent standards 
are developed. The development of standards is crucial to 
moving forward with UAs integration into the NAS. FAA has asked 
the RTCA, an industry-led Federal advisory committee to FAA, 
with the development of a Minimum Aviation Safety Performance 
Standard for detect, sense, and avoid, command, control, and 
communication. These standards will allow manufacturers to 
begin to build certifiable avionics for UAs. Until there are 
set standards and aircraft meet them, UAs will continue to have 
appropriate restrictions apply.
    Because of the extraordinary broad range of unmanned 
aircraft types and performance, the challenges of integrating 
them safely into NAS continue to evolve. The certification and 
operational issues described herein highlight the fact that 
there is a missing link in terms of technology today that 
prevents these aircraft from getting unrestricted access to the 
NAS. Currently, there is no recognized technology solution that 
can make these aircraft capable of meeting regulatory 
requirements for see and avoid, command and control.
    FAA is fully cognizant that UAs are becoming more and more 
important to more and more government agencies and private 
industry. The full extent of how they can be used and what 
benefits they can provide are still being explored. Over the 
next several years, when RTCA has provided recommended 
standards to the FAA, we will be in a position to provide more 
exact certification and operational requirements to UA 
operators. The future of avionics and air traffic control 
contemplates aircraft communicating directly with one another 
to share flight information to maximize the efficiency of the 
airspace. This certainly could include some models of UA. Just 
as there is a broad range of UA, there will be a broad range of 
ways to safely provide them access to the NAS. Our commitment 
is to make sure that when they operate in the NAS, they do so 
with no denigration of safety system.
    In our history, FAA and its predecessor agencies have 
successfully transitioned many new and revolutionary aircraft 
types and systems into the NAS. Beginning in 1937, we completed 
the U.S. certification for the first large-scale production 
airliner (the DC-3), then went on to certify the first 
pressurized airliner (the Boeing 307 in 1940), the civil 
helicopter (the Bell 47 in 1946), turboprops, turbo jets like 
the Boeing 707 in 1958, as well as the supersonic transport 
(the Concord in 1979), and the advance wide-body jets of today. 
It seems appropriate that as we begin a new century and new 
millennium, advances in aviation technology present us with 
another addition to the fleet with great potential: unmanned 
aircraft.
    Mr. Chairman, FAA is prepared to meet the challenge. We 
will continue to work closely with our partners in government, 
industry, and Congress to ensure that the national airspace has 
the ability to take maximum advantage of the unique 
capabilities of unmanned aircraft.
    This concludes my prepared remarks. I would be happy to 
answer your questions.
    Mr. Mica. Thank you. We will withhold questions until we 
have heard from the other witnesses.
    The second witness is Fred Pease Jr., Executive Director 
under the United States Department of Defense Policy Board on 
Federal Aviation. Welcome, and you are recognized, sir.
    Mr. Pease. Thank you, Mr. Chairman, Congressman Boswell, 
members of the subcommittee. I do want to thank you for 
inviting me to be here today. As the Executive Director of the 
Department of Defense Policy Board, I represent the services 
and the DOD on policy in working with the FAA. The PBFA, as we 
call it, was formed about 20 years ago to not only work more 
closely with the FAA, but also represent interests on mission 
accomplishment in the DOD.
    As you know, the Department of Defense is not only a user--
we operate fleets of aircraft--but we also--some people don't 
think about this part, but we are also a provider of air 
traffic services. The DOD has about 4,000 air traffic 
controllers who are a seamless partner with the FAA to provide 
those air traffic services to not only military, but also 
civilian, general aviation, commercial. Last year, the DOD 
controllers provided air traffic services for over 15 million 
operations, of which 3.5 million were civil, general aviation, 
and commercial traffic.
    The Policy Board on Federal aviation is comprised of senior 
executives and general officers from all the services and from 
the Joint Staff and members of the Office of the Secretary of 
Defense, and this body is supported by various subgroups, one 
of which is UAS subgroup, which has recently been established 
over the last couple of years and is working harder, believe 
me, every day as we go along through this issue.
    Although I have been involved in air traffic issues, 
especially for the Air Force, and airspace and whatnot for a 
long time, I just assumed this position with this DOD hat last 
December, and I can assure you that UAVs have been at the top 
of a very small list of issues that I deal with every day. I 
work directly with Mr. Sabatini; my organization works directly 
with his organization. And I am confident--and other senior 
leaders in the FAA, and I am confident that we are going to be 
able to work the issues that we need to work to integrate 
unmanned vehicles both into the national airspace system for 
DOD and working with the FAA, helping them bring--helping them 
also to integrate these into the overall system.
    As you pointed out, Mr. Chairman, we are going through a 
period of very rapid technology advancement--you see some of 
that on your desk today--and also an awful lot of operational 
know-how that you find in any conflict where technology is used 
in innovative ways. There are folks in Iraq and Afghanistan 
that are using that UAV that you have on your desk today in 
operations.
    As with any technological advancement, it challenges us to 
provide the policy and the guidance that we have to do to 
incorporate this thing, these technologies. I am sure that 
there will be some segments of the user community, including 
perhaps some in my own user community, that will be a bit 
frustrated because we are not going fast enough, but I believe 
that we are on the right path, what I have seen over the last 
couple of months that I have been doing this, and I am 
confident that we will be able to provide the regulatory 
guidance with the FAA that we need to safely integrate these 
platforms.
    My colleague, Mr. Weatherington, can provide you some more 
detailed discussion about the acquisition issues associated 
with unmanned vehicles in the Department of Defense. And having 
said that, again, I want to thank you for having invited me 
today, and I will be happy to answer your questions at the 
appropriate time.
    Mr. Mica. Thank you.
    We will turn next to Dyke Weatherington. He is Deputy of 
the Unmanned Aerial Systems Planning Task Force with DOD. So we 
welcome you and we recognize you.
    Mr. Weatherington. Good morning, Mr. Chairman, Mr. Boswell, 
and members of the Committee. Thank you for the opportunity to 
discuss with you today a very important area. As you have 
indicated, I am deputy for the Unmanned Aircraft Systems 
Planning Task Force within the Office of the Under Secretary of 
Defense for Acquisition and Technology, and in that capacity I 
am primarily responsible for the acquisition and development of 
our very robust unmanned aircraft systems. I appreciate the 
opportunity to provide you overview of our plan to integrate 
these very large and dynamic systems into our national airspace 
and international airspace safely.
    DOD unmanned aircraft system are playing a major role in 
combat operations both in Iraqi Freedom and Operation Enduring 
Freedom. During the past year, unmanned aircraft operations 
supporting the global war on terrorism expanded dramatically, 
and theater and tactical unmanned aircraft flew over 100,000 
hours just last year, and I hopefully have a graphic of that 
coming up.
    Unmanned aircraft systems are playing an ever-increasing 
role in a wide range of DOD missions, but they are also playing 
an increasing role in homeland defense, disaster support 
operations, as well as support to civilian agencies such as 
Department of Homeland Security for Border Security.
    Today, the military departments have a force of over 2600 
small unmanned aircraft, one of them you have an example of up 
there, and about 300 larger unmanned aircraft that support 
military operations worldwide.
    It is important to note--and Mr. Sabatini made this point--
that our unmanned aircraft system span a broad range of 
capability. We have small ones up on your desk and large ones 
like Global Hawk that are over 27,000 pounds.
    I just have a couple examples of those. The Raven, which is 
the next graphic, is an example of a small unmanned aircraft 
system, and this is the most polarific unmanned aircraft that 
we have in the force today. It is typically operated by one or 
two soldiers; it is primarily used for situational awareness at 
a fixed site location. The range of the system is typically 5 
to 6 nautical miles. It operates at altitudes typically of a 
couple hundred feet, but up to 1,000 feet; and the endurance is 
about an hour. Generally, this aircraft has performance similar 
to what you might see in a commercial radio-controlled model 
aircraft.
    The next graphic shows an example of the next level, our 
tactical unmanned aircraft systems. This happens to be Shadow, 
which the Army operates. It ranges out to up to about 80 
nautical miles, typically operates at altitudes less than 5,000 
feet and at air speeds typically less than 80 knots. Its 
endurance is about five hours, and its size and performance is 
similar to many manned ultra-light aircraft. It typically 
operates from small, unimproved airfields and it carries an 
electro-optical and infrared camera system, one similar to what 
you might find in a traffic helicopter.
    The next level of performance in DOD's unmanned aircraft 
are shown with the Predator A system here. Predator A is about 
2400 pounds, roughly the same size as a Cessna 172. And the 
next figure, Global Hawk, which I mentioned previously, is 
about 27,000 pound aircraft. These systems generally operate at 
altitudes ranging from 15,000 to over 60,000 feet for very long 
endurances, sometimes in excess of 30 hours, and they operate 
from established airfields. They carry a variety of sensor 
systems, including electro-optical, infrared, imaging radar, 
single intelligence payloads, and some others. They are 
typically operated beyond the line of sight in that we operate 
them through a satellite link. And as an example, the figure I 
showed of Predator, we have multiple Predators in theater 
today. Virtually all of these are operated through a satellite 
link and they are commanded and controlled from an Air Force 
base in Nevada.
    The term ``unmanned aircraft system'' properly identifies 
the airborne component as an aircraft, which is consistent with 
the Federal Aviation Administration's view of these platforms. 
During the last year, the Office of Secretary Defense released 
our third edition, in August of 2005, of the unmanned aircraft 
systems roadmap, which is our broad-range plan for integrating 
service developed systems and capabilities into the longer-term 
goals.
    I would like to point out that one of our top goals in this 
roadmap was to foster the development of policies, standards, 
and procedures that enable safe, routine, and timely operations 
by unmanned aircraft in both controlled and uncontrolled 
airspace.
    Military unmanned aircraft have historically been flown on 
test and training ranges that were restricted, or in war zones, 
and, thus, they were largely segregated from manned civilian 
aircraft. But this is changing, as has been pointed out 
recently. In order to fully integrate unmanned aircraft into 
the national airspace outside of restricted airspace, there are 
regulatory and technology issues that must be addressed by both 
DOD, FAA, and other industry partners. Our airspace plan for 
the integration of unmanned aircraft details these issues and 
key drivers that must be addressed to achieve the goal of safe 
routine use of the national airspace certainly by DOD unmanned 
aircraft and likely by commercial entities in the future.
    In 1997, FAA and DOD agreed to allow DOD unmanned aircraft 
access to the NAS using the previously described Certificate of 
Authorization process. The COA process allows for DOD unmanned 
aircraft access to the NAS for events that are planned well 
into the future, and this process has served all parties very 
well and continues to do so today. However, it is insufficient 
to support operations of an unplanned nature, such as disaster 
operations or homeland defense. A significant number of DOD COA 
approvals recently have increased in length of processing. and 
in some cases a few DOD programs have experienced some delays 
that impacted the programs.
    Now I am happy to report today that I have been informed 
that a number of those pending COAs are about to be approved 
today, and that is certainly good news to DOD.
    While ground-based radar has been the primary means for 
providing equivalent level of safety for the COA process, it 
has limitations and, in DOD's view, it is not a long-term 
solution. To mitigate radar limitations, DOD is developing 
technologies that fall under the broad category of collision 
avoidance, also been described as sense and avoid technologies, 
and we believe this capability will be organic to many DOD 
unmanned aircraft. We also believe that these capabilities will 
likely exceed the capability of the human eye.
    Directly related to this technology development is the need 
for standards to design and build to, and to collect data to 
measure the effectiveness of these specific sense and avoid 
systems. DOD is planning to demonstrate optical systems that 
have a sense and avoid capability later this year.
    Our airspace integration plan for unmanned aviation also 
recognizes that not all unmanned aircraft will likely be 
qualified to file-and-fly in all classes of airspace, and DOD 
promotes three categories for unmanned aircraft. The first 
category fully complies with Title XIV, Part 91, including the 
ability to see and avoid, and systems that would meet that 
qualification could be Global Hawk with future technology 
upgrades.
    The next category would be similar to light sport aircraft 
or ultra-lights. They probably would not have a full capability 
and would likely, at least in the near term, require 
Certificate of Authorization to operate in the NAS. And Shadow 
may be an example of one of those.
    Finally, the last category are the small unmanned aircraft, 
similar to RC model aircraft. We do not believe a COA is 
probably appropriate for these, at least an individual COA, and 
BATCAM and Raven might be candidates for this category.
    Standards and technology enabling unmanned aircraft to be 
qualified for file-and-fly are still being developed; however, 
DOD is investing significantly in this area. Once the 
technology is developed and proven, regulatory changes will 
likely be required to allow DOD unmanned aircraft to file and 
fly. Regulatory changes that could allow DOD more flexibility 
for small unmanned aircraft we believe, however, could be 
implemented very soon, and DOD needs that.
    In summary, DOD has safely accumulated hundreds of 
thousands of unmanned aircraft flight hours, many of which were 
in congested airspace in Iraq. DOD unmanned aircraft 
increasingly require routine access to national airspace 
outside of restricted areas for combat training, homeland 
defense, and disaster relief operations. Routine access at the 
current COA process does not accommodate well. Changes to the 
current COA process can provide more routine access and safe 
access to the NAS now, while DOD and FAA work together to 
define and implement a long-term plan for airspace integration 
for the full range of unmanned aviation.
    DOD's priorities for immediate action are: first, to 
continue to work with FAA to approve all our pending and future 
COA requests in an expeditious and timely manner; second of 
all, to work with FAA to provide great airspace access for our 
small unmanned aircraft operations outside of restricted 
airspace; and, finally, to work with FAA and other government 
agencies for the development of standards for sense and avoid 
capabilities.
    Today, DOD and the Department of Homeland Security unmanned 
aircraft operations in the NAS typically occur over very low 
population areas and airspace with very low densities, and our 
safety record clearly demonstrates that DOD unmanned aircraft 
operations in the NAS have not posed a significant risk or 
threat to the public or have been a hazard to safe airspace 
operations, and DOD fully intends to keep it that way.
    This concludes my prepared remarks, and I would be happy to 
answer any questions at the appropriate time.
    Mr. Mica. Thank you.
    We will now hear from our last witness on this panel, Mr. 
Michael Kostelnik. He is Assistant Commissioner of the Customs 
and Border Protection Office of Air and Marine under the 
Department of Homeland Security.
    Welcome, sir, and you are recognized.
    Mr. Kostelnik. Thank you, Mr. Chairman, Congressman 
Boswell. Thank you for the opportunity, at a time period when 
the Nation's security is on the people's mind, to have the 
opportunity to share with you how U.S. Customs and Border 
Protection is actually using UAVs today in the national 
airspace in concert with the Department of Air Force, 
Department of Defense, and our good friends at the FAA.
    U.S. Customs and Border Protection, now three years old, 
got into the UAV business through legislation and direction 
under the Intelligence and Terrorism Prevention Act in 2004, 
and with the funding that was subsequently provided in 2005 and 
2006, we were able to competitively choose and procure two 
operational systems. We chose a Predator B, which is a larger 
version of the Predator A that my colleague just showed, very 
similarly equipped, but much more capable in terms of duration. 
We actually entered into service with the first vehicle in 
September of last year, and it has been very high performing, 
as was indicated by earlier comments, in the southwest border 
under the auspices of the Border Patrol.
    Now, the UAV is not the panacea for all our missions. They 
are not going to approach manned approaches to border 
surveillance, but they certainly are force multipliers, in our 
view, and we use them very carefully where they make a lot of 
sense. We have a lot of activities and a lot of infrastructure 
dedicated toward border surveillance, much as Congressman 
Boswell talked about. We still have aircraft with standoff 
radars looking around our borders, much as we did in the 1960s 
and later in the 1970s, when borders were important overseas. 
But today it is much more sophisticated and we have other 
capabilities: we have air stats, airships covering the 
southwest border, P-3 aircraft and other smaller aircraft 
carrying a wide variety of sensors and multi-spectrums, doing 
border surveillance. And our UAV use of the Predator B fits 
nicely into this approach.
    The aircraft we have chosen is a fairly large aircraft by 
UAV standards, realizing there are many issues with a wide 
variety of UAVs that exist today. It is about 10,000 pounds max 
gross weight, a wing span of about 66 feet. So if you saw this 
in person, you would pretty much think that you were looking at 
a light home-built type of aircraft.
    The issues that have been raised in terms of safety, the 
continuity of command and control, see and avoid are all issues 
that we try to deal with in some way. The Predator B design was 
specifically chosen because of the specific robustness in this 
area because of the size of the vehicles and the design. There 
are multiple redundancies built into the programs, multiple 
options for fail safe approaches during emergencies. And 
although the vehicle itself is unmanned, there are large crews 
on the ground in the near vicinity where the aircraft is 
operated and remote sites with radar coverage over all of the 
flying infrastructures in the Country that watch our vehicles 
in the areas we choose to fly in throughout all the regimes of 
flight.
    Our specific area of operation is currently in the Arizona 
border, participating in a wide variety of activities, trying 
to secure the southwest border. The typical missions launch in 
the evening. We fly pretty much at night, from dusk until dawn 
the next day, typically 14 hour missions. The vehicle is out 
doing surveillance with both radar, infrared and electro-optic 
sensors, looking for illegal immigration, looking for illicit 
narcotics movement, and working with Border Patrol and other 
equities on the ground to recover.
    I am proud to say that we have had very good result from 
our systems since our system has been operational, one vehicle 
since September of last year. This vehicle, in concert with 
Border Patrol equities on the ground, have been responsible for 
detecting 1800 illegal immigrants trying to come across the 
border in the southwest. Twelve hundred of those were actually 
detained and apprehended as a result of inter-relationships 
between the UAVs and people on the ground. About 7,000 pounds 
of illicit narcotics, mostly marijuana, has been recovered, and 
the seizure of four vehicles. So you could see if you took just 
the street value of those things and the potential issues if 
some of those immigrants turned out to be terrorists or 
terrorist-oriented, rather than economic emigres, the 
significant impact the UAVs are currently having in our border 
security initiatives to date.
    We are very pleased, working very close with the FAA and 
will continue to do so in the future to ensure that we not only 
keep the national airspace safe, but we keep our borders safe 
as well. We honestly believe with greater facilities like the 
air marine facility out in Riverside, California, and current 
connectivity, all the time we are flying with the vehicle 
through radar in current connectivity with the FAA, the way we 
file with flight plans, the redundancies of the vehicle, we 
feel very strongly not only can we operate the vehicle safely 
and around the times and the areas we specifically choose and 
need to protect our borders, we think we can contribute very 
purposely to the learnings and to hopefully the requirements 
definition for how other UAVs could be modified with similar 
approaches to fly in broader reaches of the airspace. We are a 
member of the group with the FAA and look forward to working 
with them to extend the operations through the remainder of the 
borders.
    I look forward to your questions. Thank you, sir.
    Mr. Mica. Thank you. I have a few questions I will start 
out with.
    First of all, Mr. Pease, I think I attribute this quote to 
you, that the COA, this current process of approval, is not a 
long-term solution. I think that was a comment that I heard 
from DOD. And then I think one of you alluded to the fact that 
some COAs that have been pending are about to be approved. I 
don't know if it is as a result of the hearing, but one of the 
problems that we have heard, that this current process that we 
have takes a long time, and we have current congestion in the 
approval pipeline, and we probably expect more in the future. 
So your comments or DOD's comments that this is not a long-term 
solution, what do you suggest?
    Mr. Pease. I am not sure, Mr. Chairman, that I said that. 
In fact, I don't think I did. But--
    Mr. Mica. It was either you or Weatherington.
    Mr. Pease. Yes, sir. I would like to address it, however. I 
think the COA process was a good process when it was put in 
place, and it has worked very well over the last--I believe it 
has been working since the late 1990s. But in any process, 
especially when you are dealing with very rapid changes, as I 
talked about before, in technology and operational know-how and 
increased demands, then, and as Mr. Sabatini said, the numbers 
of COAs are starting to get up very--becoming time intensive, 
if you will, for staffs and whatnot. And we have, again, since 
I started looking at this last December, we started to look at 
the process itself to re-engineer the process. So I think up 
until--in the past the COA process has been adequate, but in 
the future we are going to have to look at making it more 
streamlined. And I believe we are committed--I know the FAA is 
committed--to making it more streamlined.
    We have looked at the COAs that are about to be approved. 
We took about a 90-day look at them again, just to make sure we 
are operating safely, because of what we see as there going to 
be a proliferation of new requirements in the future.
    And I will let Mr. Weatherington add anything to that he 
wants.
    Mr. Weatherington. Sir, I would just confirm what Mr. Pease 
indicated. For some activities the COA process still probably 
fits DOD's requirements pretty well if we can fix this backlog 
that we have. There are some operations, however, because of 
their very time intensive nature, that a COA process does not 
seem well suited for. Now, we do--DOD and FAA do have other 
methods to accommodate those. They aren't well developed yet. 
So DOD and FAA will be continuing to work the improvement of 
the COA process and the refinement of other options. TFRs were 
mentioned as potentially another solution. There are 
limitations and potential drawbacks to TFRs also, however. So 
the long-term aspect from DOD's perspective is we need to 
develop the technologies that for the most case will allow 
DOD's unmanned aircraft to file and fly and gain access to the 
NAS similar to what commercial aviation does today.
    Mr. Mica. And for the DHS representative, you are being 
called on more for border patrol enforcement purposes. Are you 
seeing the same problem, the approval process is awkward or out 
of date, or we need some expedited means of approval?
    Mr. Kostelnik. I think for the present, Mr. Chairman, we 
are actually in pretty good shape. We are in fact operating 
under a COA in Arizona in about a 100-mile stretch, and we do 
have one of those pending that is in the final stages of 
approval this week, which we expect to get authorities to 
extend that coverage to 344 miles. But for us, since we only 
have one operational vehicle and will not get our second 
aircraft until summer, actually, we are the beneficiary of 
taking time to do this, and I would submit that each one of 
these COAs needs to be kind of driven, the time of it, by the 
risk associated with the type of aircraft that is seeking 
approval, the location and way in which that aircraft will be 
flown, and the risk both to civil aviation and the purposes on 
the ground. So for us, in the areas where we are flying now, in 
the Arizona, soon to be Arizona and New Mexico border, and 
hopefully downstream in the Texas border, we will be flying, by 
and large, late at night and over uninhabited areas, again, 
with a very sophisticated radar coverage.
    So we are comfortable with the process to date, and we 
don't really have the number of assets that DOD has to require 
such a fast turnaround, so I think we are comfortable with 
where we are today.
    Mr. Mica. Mr. Sabatini, having known him for some time, is 
sort of Missouri-oriented in his philosophy, sort of like Mr. 
Show-Me. He said in his testimony that we do not now have the 
technology to monitor these unmanned aerial vehicles. And then 
I heard--and again I don't have names--one of the DOD 
representatives said see and sense and avoidance systems are 
right around the corner. How close are we, Mr. Weatherington or 
Mr. Pease? In fact, one of you testified that--my notes here--
it would be better than the human eye. When can we expect that 
technology?
    Mr. Weatherington. Yes, sir. From a technology perspective, 
DOD has extensive work modeling human pilot performance, and we 
have the opportunity then to take that human pilot performance 
and run it through a number of simulations. And our data 
indicates that for some scenarios, the human eye, assuming that 
the pilot is very responsive to visual cues, still is not 
sufficient to avoid some near miss situations. So that was 
really the basis for a remark that, from DOD's perspective, the 
detect and avoid systems that we are developing we believe 
need, in most cases, to be an improvement of what the human 
capability is today.
    I also mentioned that--
    Mr. Mica. When do you think that you will have something 
that meets Mr. Show-Me's requirements?
    Mr. Weatherington. DOD has been in consultation and has 
briefed FAA on--
    Mr. Mica. Are we talking a couple of years, a decade, right 
around the corner?
    Mr. Weatherington. Sir, it really depends on the 
performance of the system. Certainly by the end of the decade 
DOD believes that we will have technology sufficient to provide 
an equivalent level of safety for a Predator class system in 
visual flight condition rules, and hopefully have that onboard 
the system.
    Mr. Mica. Quick question. What kind of safety record do we 
have now with both DHS and DOT? Have we had--I thought somebody 
told me we had some near misses. Is that the case or am I 
getting a bad scoop?
    DOD?
    Mr. Weatherington. Sir, for NAS operations, I am not aware 
of any incident that we have had in the last seven years that 
resulted in a near miss with commercial or general aviation 
aircraft. Now, I will say that in restricted areas DOD operates 
somewhat more aggressively to simulate combat operations. In 
those cases we do integrate manned and unmanned very closely. 
We have not encountered any unsafe operations, but it really 
depends on how you ask the question as to what answer you get 
back.
    Mr. Mica. DHS?
    Mr. Kostelnik. No, sir. In our operational experience since 
September of 2005, we have had no incidents, safety or 
otherwise, with the Predator B that we have been flying.
    Mr. Mica. Mr. Sabatini, you are spending more and more 
resources, time and effort in this current approval process. Is 
there anything that can be expedited? You saw from the charts 
the number of these flights; just in like the last year it 
looked like they doubled. What are we going to do from your 
standpoint? You are going to need more resources just to handle 
the current processing. Is this going to be out of control in a 
short time without technology to deal that you deem 
satisfactory?
    Mr. Sabatini. Mr. Chairman, let me say that I would agree 
that the COA process is certainly not a long-term solution, 
recognizing that this has now become quite prominent in terms 
of unmanned aircraft seeking access to the NAS. This past year 
I established an unmanned aircraft office, program office, with 
three people assigned to it. Again, those folks are taking out 
of hide. We had not anticipated growth so early. So that 
basically has come out of our hide, as I say. But in the 2007 
budget I am asking for six people that can add to the 
processing of COAs and experimental airworthiness certificates.
    I believe that we are being quite responsive to the needs 
of the different Federal agencies. Where today, again, 
beginning with a process that started fairly recently, we had a 
60-day turnaround. We are cutting that down to 30 days as we 
have gained experience. It is also important to note that we 
have a long history with the military in terms of they are 
responsible, as we all know, for the defense of this great 
Country of ours. They have been able to access the airspace, 
the NAS, to conduct their business on an ongoing basis, and 
they have developed an expertise. If you recall the discussions 
we had a few years ago around public use aircraft, they have a 
resident expertise in the certification of their own airframes. 
As other Federal agencies come online and wish to operate in 
public use aircraft over which the FAA has no direct 
certification responsibility for the airframe, those agencies 
need to develop their own expertise similar to what DOD has 
done very successfully.
    So we are anxious to work with the Federal agencies, and I 
believe that we can turn around COAs in a very timely way.
    Mr. Mica. Thank you.
    Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    Just to continue there, Mr. Sabatini, how long do you 
visualize before final resolution for the regulations for the 
UAV integration into the national airspace?
    Mr. Sabatini. It is difficult to put a time on that, Mr. 
Boswell. We have, again, proactively, engaged and tasked the 
RTCA to address the command and control, detect, sense and 
avoid issues because they are--those capabilities are lacking 
on unmanned aircraft today. The RTCA has been quite responsive 
in expediting the process that they are using. Remember, this 
is a voluntary basis on the part of industry. They come 
together at their own expense and work with FAA and the Federal 
agencies in determining what those requirements need to be. And 
we believe we will have an outline of what those requirements 
may be by the end of this year, in 2006, and expect further 
development by the end of 2007 for positioning us then for 
rulemaking.
    Mr. Boswell. Okay. When you lose control, what do you do, 
destroy the aircraft, or do you land it, crash it? What do you 
do with it if it gets away from you?
    Anybody.
    Mr. Kostelnik. I will go ahead and answer that for DHS. 
Flying the Predator B I think is very typical of the Predator 
A. We fly these things both line of sight with a C-band and 
also beyond line of sight, especially in the DOD, with Ku-band 
radar. The aircraft are programmed such that if you lose line 
of flight, it preprograms into an alternative. In the case of 
DHS Predator B, we can fly the vehicle through another source. 
Even though we typically have line of sight only for our 
aircraft, we can fly them through an Iridium satcom that allows 
us to take the aircraft back to a locale where it can re-
establish line of sight. If it cannot establish realignment 
with the line of flight [sic], then it goes into an orbit for a 
certain amount of time and then ultimately returns back to 
field and hopefully gives an opportunity to pick up again line 
of sight control. And if line of sight is not picked up, then 
typically it is either landed or purposely crashed in a non-
inhabited area.
    So you can program and have backups to all kind of 
contingencies that happen. In the case of DHS, during these 
kind of emergencies, we are always monitored by our radar 
facility out in California, through local radars in the area 
where we are immediately following, and through feeds directly 
that are tied with the FAA. Everything that happens with a 
vehicle is watched on radar with multiple people in the loop. 
So, today, losing a line of sight communication is not a big 
deal, and when it happens usually we are able to reacquire an 
alignment shortly thereafter.
    Mr. Boswell. I am just curious about line of sight. You 
know, if you are flying at, for some of us, 200 feet doesn't 
reach out there too far.
    Mr. Kostelnik. No, that is true, and certainly the vehicle 
you have, the actual performance and the design of the vehicle 
and the way you operate it are first order effect on this. In 
our case, we fly our missions at 13,000 feet, so we are fairly 
high altitude, and we fly well within our line of sight range 
to have margins there which add to our redundancy to make sure 
we can maintain line of sight control.
    Mr. Boswell. Okay, thank you.
    Back to you, Mr. Sabatini. I understand you have issued 
guidance to require a company to apply for an experimental 
aircraft certificate for a particular UAV before it can flight 
test. I hear that some companies have suggested that you should 
develop the equivalent of a company certificate of 
authorization to allow them to conduct private operations in 
remote areas for multiple aircraft models. What are your 
thoughts? What are you doing there?
    Mr. Sabatini. Well, for many, many years the experimental 
airworthiness certificate has been the vehicle that we have 
used to allow companies such as those that have suggested that 
to conduct research and develop. It is the perfect vehicle. And 
because it is an experimental, we then work out restrictions 
and limitations, and protect the public and keep those 
operations in areas where it cannot do any harm to people on 
the ground or in the air. Safety is paramount.
    Mr. Boswell. Okay.
    Mr. Pease, in the COA process employed by the FAA to allow 
military use of UAVs, is it sufficient to ensure our needs, do 
you think?
    Mr. Pease. Yes, sir. Up until now--again, when I started my 
position as the Executive Director of the Policy Board on 
Federal Aviation and these COAs were coming up to expiration, I 
wanted to make sure that we had--and these COAs, again, as I 
said before, had been in place since 1997 and a lot of things 
had changed since 1997. So we instituted, with the FAA, a 
review of our process. Again, I think that the COAs are a good 
process to deal with for the kinds of activities that we are 
conducting. As in any process, it can be re-engineered, it can 
be made better. We are trying to do that. And I think that it 
will, in the short-term, we will be able to meet our needs, but 
in the long term we are going to have to look at other things, 
as has already been discussed.
    Mr. Boswell. Okay, this last question or comment, what is 
your consideration to develop these TFRs, general aviation and 
their impact? How much do you involve that in your decision-
making process? Anybody.
    Mr. Sabatini, I will help you out. You first.
    Mr. Sabatini. Certainly, all those factors are considered 
and we work with the various associations.
    Mr. Boswell. Do you actually contact, like, for example, 
AOPA to see what their feelings are? Do you actually engage 
them at the table?
    Mr. Sabatini. Well, I don't know that we actually might be 
at a table together, but we certainly have conversations. For 
example--
    Mr. Boswell. They are pretty nice folks. You ought to get 
at the table once in a while.
    Mr. Sabatini. Well, Mr. Boswell, I am a member of AOPA.
    Mr. Boswell. So am I, but that is not the point.
    Mr. Sabatini. But I do know them, and we work very closely 
with them, and I will tell you that we certainly consider, very 
definitely consider their concerns and their issues before 
issuing a TFR. Their needs are well understood and accommodated 
for.
    Mr. Boswell. Okay. Well, thank you. We will count on that. 
I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Graves. [Presiding] Mr. Coble?
    Mr. Coble. Mr. Chairman, I have been between hearings, 
Judiciary and here, and have missed most of this. I just want 
to thank the panel for being here, but I have no questions.
    Mr. Graves. Mr. Hayes, questions?
    Mr. Hayes. Thank you, Mr. Chairman.
    Congressman Boswell, don't rush off here, now. Is it true 
that they accused your helicopter of being unmanned when you 
were flying it?
    [Laughter.]
    Mr. Hayes. Leonard and I are very good friends and have an 
extremely high interest, as does Chairman Graves, in this whole 
issue.
    I think the integration into the system--and I apologize 
for not hearing the first part of your testimony. I appreciate 
your being here and appreciate Chairman Mica holding the 
hearing.
    When will there be routine operations, in the opinion of 
the panel, taking place in the national airspace? Well, let us 
start with that. When might this take place, or, in your 
opinion, General Kosteli [sic], is that happening now?
    Mr. Kostelnik. No, sir, I certainly don't think it is 
happening now. And I think, given the policy issues with the 
wide variety of UAVs, I mean, there are some like the model 
that is sitting up there, you know, it is not very capable 
compared to a 10,000 pound, 66 foot wingspan. So we have 
everything--and Global Hawk even larger--we have everything in 
between. I would certainly, as a professional pilot myself, be 
more comfortable with these larger systems operating with all 
the kind of things it would have and all the redundancies. I 
would not be as comfortable with that flying in the routine 
national airspace with small things.
    For us in Homeland Security, the good news and the bad news 
for us is we are flying at very specific locales, very close 
to, in many cases, DOD ranges that exist, very close to the 
border, where you wouldn't expect a lot of commercial civilian 
traffic; and mostly our missions are late at night, when 
usually the people that are flying in those locales are up to 
no good. So a lot of our activity, which I would say is not 
routine, is very carefully orchestrated, using a wide variety 
of assets, and I think we are probably not much of an impact or 
threat to impacts on civilian aviation into the national 
airspace. And as we continue to grow this capability, we will 
be growing in different border locations, the northern border 
in particular, as well as the south and some of the coastal 
regions, but typically they will be in locales that are low-
density populations and very carefully orchestrated towards 
very specific ends.
    Mr. Hayes. So you don't really see this, at this point, as 
being a major conflict. As is Leonard and Sam, we are all 
concerned about conflicts. The general aviation industry is so 
important to our economy, the commerce, aircraft manufacturers 
in this Country are so important. I want to make sure, going 
forward, that we don't fail to blend this in, but it is an 
important tool.
    I am led to believe, in my home State of North Carolina, 
recently a police department had talked about using an unmanned 
aerial vehicle. Is that being contemplated, is that being done? 
Anybody on the panel now. How common is that?
    Mr. Sabatini. Well, it is not very common, Mr. Hayes. We 
did have conversation with the police chief at Gastonia, North 
Carolina, and he has been very cooperative. We helped him 
understand the complexities of introducing a vehicle into the 
airspace, the difficulties in the perhaps unsafe operations 
over congested areas, and he has agreed to operate those 
aircraft in accordance with what we are doing to help them be 
successful in those operations.
    Mr. Hayes. Anybody else have a thought on that? As long as 
we keep the coordination and cooperation going and keep 
everybody in the loop.
    Mr. Weatherington?
    Mr. Weatherington. Sir, yes. I don't know if you saw the 
graphic I showed earlier. Last year, DOD flew in excess of 
100,000 hours. Now, most of those hours were in combat 
operations.
    Mr. Hayes. Absolutely.
    Mr. Weatherington. Approximately 30,000 of those hours, 
slightly greater than that, were for operations in CONUS. Most 
of those were in DOD restricted airspace. However, as DOD 
continues to populate the forestructure, more and more of those 
hours will be flown outside of restricted airspace. A specific 
example of that is later on this year the Air Force will begin 
regular operations at Beale Air Force Base with Global Hawk. 
Beale is Class D airspace up to 3,000 feet, I believe, but once 
you get above 3,000 feet of airspace, you are in the NAS.
    Now, Global Hawk transitions relatively quickly up to a 
relatively high altitude at low congestion levels, but those 
operations will become very common later on this year, and 
certainly next year.
    Additionally, General Atomics, which I believe Admiral 
Cassidy is on the next panel, has operations very close to DOD 
restricted airspace near Edwards Air Force Base. There are 
regular operations ongoing at those locations also. Typically, 
they transit into DOD restricted airspace to conduct most of 
their operations.
    But in answer to your question, from DOD's perspective, 
there is a significant amount of activity happening today in 
the NAS. Again, most of that is in restricted airspace today, 
but the percentage of hours outside of restricted airspace will 
grow considerably over the next five years.
    Mr. Hayes. If I might, Mr. Chairman, just one more 
question. Is it safe to assume--now, I am assuming that 
military operations are very precisely choreographed and 
handled, and the operator of the vehicle is in contact with the 
appropriate control facilities as the vehicle penetrates 
airspace. If I am correct, assure me that is the case. Where my 
concern goes, if there is a significant number of uncontrolled 
by various and sundry agencies just out doing whatever 
Gastonia--not to say that it is anything bad. But that is where 
my concern begins to get great.
    Thank you all for your testimony. I apologize for going 
over.
    Thank you, Mr. Chairman.
    Mr. Graves. We are going to go ahead and set the next panel 
now. We are going to have a vote coming up in about 10 or 15 
minutes, so we want to try to get started as quickly as 
possible. I apologize all of you being here today.
    And we will set the next panel, which is going to be Dr. 
Robert Owen, Professor of the Department of Aeronautical 
Science at Embry-Riddle Aeronautical University; Mr. Andrew 
Cebula, Senior Vice President, Government and Technical Affairs 
with the AOPA; Dr. Mike Heinz, Executive Director of UNITE UAV 
National Industry Team; Rear Admiral Thomas J. Cassidy, who is 
President of General Atomic Aeronautical Systems; and Mr. Jay 
Mealy, Programs Director at The Academy of Model Aeronautics.
    Thank you all for being here. We will go ahead and start 
with Dr. Owen.

   TESTIMONY OF DR. ROBERT C. OWEN, PROFESSOR, DEPARTMENT OF 
  AERONAUTICAL SCIENCE, EMBRY-RIDDLE AERONAUTICAL UNIVERSITY; 
ANDREW CEBULA, SENIOR VICE PRESIDENT, GOVERNMENT AND TECHNICAL 
 AFFAIRS, AIRCRAFT OWNERS AND PILOTS ASSOCIATION (AOPA); MIKE 
  HEINZ, EXECUTIVE DIRECTOR, UNITE UAV NATIONAL INDUSTRY TEAM 
(UNITE); RADM THOMAS J. CASSIDY, JR. (RET.), PRESIDENT, GENERAL 
ATOMIC AERONAUTICAL SYSTEMS; AND JAY MEALY, PROGRAMS DIRECTOR, 
                THE ACADEMY OF MODEL AERONAUTICS

    Dr. Owen. Thank you. Members of the Committee, first of 
all, let me say, like everybody else does, that I am honored to 
be here. These are important hearings and I am glad to be a 
part of them.
    If I may impose on you for just a moment, I want to explain 
Embry-Riddle's interest in unmanned aviation. As the world's 
only university centered on aviation, we take a broad interest 
in anything that has to do with building aircraft, conducting 
and supporting flight operations, and managing aviation 
business. This interest extends to unmanned aviation as well. 
Currently, we are addressing UA through a variety of 
engineering, flight test, human factors, air traffic and flight 
simulation, and policy development activities.
    In my remarks here, I intend to lay out a few important 
what I call truths of commercial unmanned aviation for your 
consideration and to suggest two legislative priorities 
springing from those truths. My hope is that these points will 
make the case that the time for more active congressional 
involvement in this area is now, not later.
    First, it is important that we all understand that private 
and commercial operators are flying thousands of unmanned 
aviation vehicles and systems in this Country and around the 
world. I list a few areas of application here on the slide just 
for illustration; there are many, many more. The problem is 
that there is no body of law or regulation in this Country that 
enables the conduct of routine, safe, and profitable unmanned 
commercial flight. While the FAA's Advisory Circular 91-57 
covers the flight of recreational model aircraft, neither it 
nor any other document allows people to fly similar or more 
sophisticated unmanned aircraft for pay. If, for example, I use 
a three pound radio-controlled aircraft to photograph my house 
for fun, AC 91-57 makes that a legal operation. If, on the 
other hand, I use the same aircraft on the same flight to 
photograph my neighbor's house and charge him $10, I am 
operating outside the bounds of regulatory approval.
    Next slide.
    Virtually all of the systems operating commercially today 
are low-end systems. Most of those are small systems as well. 
These are aircraft, often only a few pounds in weight, 
controlled directly by the operators, who maintain visual, 
line-of-sight contact with their aircraft and their operating 
environments. As the bullets in this slide indicate, the 
commercial advantages of low-end systems include: their small 
size; and operating patterns that usually don't require flying 
more than a few hundred feet above the ground, well below 
normal air traffic. Not often recognized is the economic 
benefit of their operation by what I call adjunct pilots, 
pilots who fly the aircraft as an aspect of their job, but not 
as the primary focus of that job.
    In contrast, there are no high-end UAS systems that have 
entered civil government or commercial markets on a routine 
basis. By high-end, I mean systems that tend to be large, 
perhaps tons in weight, and, most importantly, that operate 
outside of the visual range and, quite often, beyond the 
electronic horizon of the operator. The current barriers to 
applying high-end UASes to commercial operations are profound. 
Most importantly, the absence of permissive regulation makes it 
impossible for operators to put them into national airspace 
routinely or predictably. Also, their control infrastructures, 
whether terrestrial or space-based, are expensive. The size of 
these unmanned systems also represent significant risk to other 
aircraft and people on the ground, resulting in high insurance 
costs. Last, the flight and support crew costs of these high-
end systems at the moment are more expensive than those of 
manned aircraft doing similar missions.
    Next slide.
    As I believe this panel is aware already, the focus of UA 
regulatory development has been on high-end systems. This focus 
has made sense given the immediate interest of the military and 
the major manufacturers providing its unmanned aerial systems. 
But from a commercial perspective, this focus is ironic since 
it serves realms of UA that are the least likely to be viable 
economically on a large scale and in the near term, and ignores 
the low-end realm that has become economically active despite 
the neglect.
    The point of this slide simply is that the state of UA 
knowledge and regulation today makes it difficult to measure 
its business attributes and potentials. The absence of a common 
analytical language, for example, about things like categories 
of commercial UA operations and cost calculators, hinders 
rigorous discussions of their economic and business attributes. 
Likewise, we need some regulator decisions on things like 
control system, crew member, and safety standards to provide a 
basis for making credible calculations of cost and profits. 
Last--and this is my pet peeve--the manufacturers and operators 
tend to hold their data pretty close to their proprietary 
chests, which makes it difficult for somebody like me to build 
up a case for the commercial application of those systems.
    This discussion leads to a couple of what I think are 
legislative priorities. The first, above all else, is the need 
for Congress to accelerate the entry of UA into the national 
airspace and economy. The next step in that process from the 
congressional perspective, I would think, may be to charter a 
GAO and/or other studies to summarize where we are now and to 
suggest things like how to categorize these operations and 
certify them and move them on into the national airspace. This 
also would be a good time to pull together a relatively compact 
tiger team of government, industry, and academic thinkers to 
provide a summary assessment of near-term legislative and 
regulatory requirements, and perhaps even to draft language to 
ease military and civil operations in the national airspace and 
to promote the development of commercial UA.
    Next slide.
    Second, I believe that Congress needs to charter a Federal 
knowledge manager for civil unmanned aviation. The role of this 
knowledge manager will be to provide a single office of primary 
responsibility for advising and supporting other agencies 
moving into UA activities, overseeing, and in some cases 
funding research and development of relevance to civil and 
commercial operators, and encourage the public dissemination of 
useful information and knowledge. There is an imminent need for 
such a knowledge manager. Federal and, as we have just seen, 
State agencies interested in exploring the application of UA to 
their missions do not have a single source of objective and 
comprehensive advice and support available to help them make 
effective and efficient decisions.
    With that, I would like to thank you again for the 
opportunity to make my comments, and I will be standing by with 
everybody else to answer questions. Thank you.
    Mr. Mica. [Presiding] Well, thank you for your testimony. I 
guess our next witness, having just come in, is Andrew--is it 
Cebula?--Cebula, Senior Vice President, Government and 
Technical Affairs, Aircraft owners and Pilots Association.
    Welcome, and you are recognized.
    Mr. Cebula. Well, good morning. As you said, my name is 
Andy Cebula, and I am with the Aircraft Owners and Pilots 
Association. We are an organization that represents more than 
406,000 pilots and aircraft owners, more than two-thirds of all 
the active pilots in the United States.
    Thank you, Chairman Mica and Mr. Graves, for holding this 
timely hearing on the safety of unmanned aerial vehicles and 
incorporating them into the Nation's airspace system.
    Although the FAA has been considering this issue for over 
15 years, other than these Certificates of Authorizations, 
which have been discussed, with governmental agencies, no 
requirements for UAV operations have been issued. Meanwhile, 
various agencies within the government have made investments in 
UAVs and want to operate these unregulated in the national 
airspace system. Because there is no FAA regulation, the 
solution has been to use flight restrictions that prohibit 
flights within a specific area of airspace, defined by ground 
references during stated dates and times as the means to 
separate manned aircraft from UAVs.
    AOPS members are extremely concerned about this approach of 
using Temporary Flight Restrictions, or TFRs. The recent use of 
airspace restrictions stretching for over 100 miles to 
accommodate UAV operations by CBP in the southwest part of the 
United States has created problems for pilots in the area. 
Members tell us that there are problems maintaining radio 
contact with the FAA in areas of high terrain that avoid the 
TFR. It has added to the numerous restricted airspace in the 
southwest, and it presses pilots to fly under the ceiling 
created by the TFR.
    We understand that the TFR will once again be increased 
over 300 miles later this week. This is just another in a 
string of airspace restrictions, such as the Washington, D.C. 
Air Defense Identification Zone, that illustrates the FAA is 
losing control for the safe and efficient use of the nation's 
airspace. And as we have seen with these other TFRs, they are 
anything but temporary. In fact, just recently I know that this 
subcommittee made certain that language was included in H.R. 
4437, the border protection legislation, that ensured that the 
FAA retained the authority to oversee, regulate, and control 
the safe and efficient use of airspace in the United States as 
UAV operations were implemented. We appreciate your action, but 
it underscores the need for the FAA to issue regulations.
    A unique problem the FAA faces in doing so is the fact that 
UAVs challenge a historic foundation of pilot and aircraft 
certification because they operate unlike any other aircraft in 
the airspace system: by remote control. This makes the basic 
safety principle of see and avoid extremely difficult. I know 
that the RTCA special committee is addressing this threshold 
issue.
    In preparation for this hearing, we surveyed pilots, asking 
them how UAV operations should occur, by restricting airspace 
or certifying their operations in the airspace system. Not 
surprisingly, an overwhelming majority favored certification. 
However, pilots tell us that the following safety concerns must 
be addressed before UAV operations should be considered: the 
inability of UAVs to detect, see, and avoid manned aircraft; 
the inability of UAVs to immediately respond to ATC 
instructions; the absence of testing and demonstrations that 
UAVs can operate safely in the same airspace as manned 
aircraft; and the need to certify UAVs to the same level of 
safety as manned aircraft. There are also questions about the 
loss of control by the operator that affects not just the 
aviation system, but buildings and people on the ground.
    Finally, as entrepreneurs are finding innovative ways to 
use UAVs, an example appears in the November 28th issue of last 
year's Washington Post that featured a story on Aeroview 
International's use for agricultural and environmental 
evaluations. Just last week, the University of North Dakota 
held a summit discussing its development of research in the use 
of UAVs. Clearly, this is a technology that is garnering a 
great deal of interest and building momentum.
    Our request to the subcommittee is to press the FAA for 
expeditious action on regulations for UAVs. Failure for prompt 
action threatens safety and the efficient use of the aviation 
system. Neither accidents between UAVs and manned aircraft, nor 
the implementation of flight restrictions is acceptable. The 
pressure for expanded use of UAVs will continue, and we believe 
that the time for FAA to act is now. Thank you.
    Mr. Mica. Thank you for your testimony.
    Mike Heinz, Executive Director of UNITE/UAV National 
Industry Team. You are recognized. Welcome.
    Mr. Heinz. Thank you, Mr. Chairman.
    Thank you for this opportunity to provide an industry 
perspective on the issue of integrating unmanned air systems, 
or UASs, into the national airspace.
    Today we are witnessing a repeat of aviation history. 
Military operations in World War I served as catalysts for 
maturing manned aircraft. This maturation was necessary to 
unleash the full potential of manned aviation for civil and 
commercial applications. Likewise, recent military operations 
have matured unmanned systems. Today, UASs are indispensable to 
battlefield commanders and are now on the threshold of exerting 
the same influence in civil and commercial fields.
    We can now envision a future in which UASs provide 24/7 
border and port surveillance to guard against terrorist 
intrusion, or a future in which UASs are deployed rapidly in 
disaster relief operations to fill communication needs, while 
normal infrastructure is incapacitated. Other examples are 
limited only by our imagination.
    However, to realize this future, we must first solve the 
challenge of operating UASs safely and routinely in the NAS. 
Currently, as has been already discussed this morning, the FAA 
allows temporary and restricted operations of UASs in civil 
airspace through the COA process or through experimental 
certificates. These impose operational constraints, such as 
observers being within visual range of the UAS, which negates 
the inherent advantage of unmanned systems: that is, being able 
to operate remotely from a human.
    For the promise of UASs to be fulfilled, we must find a way 
to gain file and fly access to the NAS and do it with no 
compromise to safety. As you heard earlier today from Mr. 
Sabatini, FAA has embraced this goal. The FAA in fact is, it is 
in the FAA flight plan. However, the FAA must continue to 
restrict access until evidence is developed that UASs can 
operate safely in the NAS. This requires a combination of 
technology, systems development and flight demonstrations to 
guide the development of regulations and standards. This job 
requires multi-agency collaboration and a Government-industry 
partnership.
    There is an urgency of action dictated by DOD and DHS 
mission needs, some of which were addressed earlier today. 
There is also an urgency in maintaining U.S. aviation 
leadership. U.S. leadership in manned aviation has contributed 
directly to U.S. national security, global trade and quality of 
life. The potential for unmanned systems to make similar 
contributions has not gone unnoticed by the rest of the world. 
Indeed, the European Union has sponsored a road map for Europe 
to have a major influence in civil UASs.
    U.S. industry is eager to retain leadership and to satisfy 
its customers' needs. However, it is disadvantaged by the 
inability to conduct industry-sponsored flight tests of new or 
improved UASs. Experimental certificates are a great step 
forward. But industry ultimately needs more flexible and timely 
flight test access to the NAS to remain competitive.
    Also, as noted in the Committee's DHS authorization bill 
last week, the FAA faces challenges when certifying new 
products. This challenge also applies to UASs and needs 
resolution for sustained U.S. leadership.
    To effectively deal with this national need, UNITE makes 
the following recommendations. First, developed a unified plan 
in which the efforts of multiple Government agencies are 
coordinated, redundancies are eliminated and gaps are filled to 
generate a sound technical basis for informed rulemaking and 
certification standards.
    Second, define an organizational construct within which all 
relevant Government agencies, industry and academia can 
participate in a collaborative environment, but in which one 
agency is assigned as lead to integrate the overall effort or 
each major element of the plan. And third, provide the Federal 
funding necessary to implement the plan through the appropriate 
agencies.
    Thank you once again for this opportunity. Industry looks 
forward to a participative relationship with Government to 
solve this pressing national priority.
    Mr. Mica. I want to thank you for your testimony.
    I will tell you what we are going to do, we have two 
additional witnesses. I have asked Mr. Graves to proceed and 
vote and return, rather than have one of you start your 
testimony and me walk out if he is not back. What we will do is 
stand in recess for just a couple of minutes until Mr. Graves 
returns, and then I will vote. We will do a little tag team 
here. But he should return shortly, and I have a limited amount 
of time to get to the floor to vote.
    So we apologize for this interruption in this panel's 
testimony. But Mr. Graves will be coming back and he will 
recognize Mr. Cassidy and Mr. Mealy at that time. So we will 
stand in recess. I would not disappear, I would say three to 
five minutes, Mr. Graves will reconvene the hearing and we will 
hear from our other two witnesses, and then get to questions.
    So we will stand in recess until that time.
    [Recess.]
    Mr. Graves. [Presiding,] Admiral Cassidy, I believe you are 
up.
    Admiral Cassidy. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today to discuss this very important 
subject of flight of unmanned aircraft systems in national 
airspace.
    Predator, the unmanned airplane controlled by an instrument 
rated commercial pilot, first flew in June 1994. This event was 
the beginning of a new era in powered flight. This same 
airplane type, and variants of it, have been involved since 
that time in supporting our military services in combat 
operations worldwide. Numerous types of UAVs, most without 
professional pilots at the controls, have actually been flying 
in confined areas for years before that, but the serious effort 
to fly unmanned aircraft type missions for very long periods 
began about 12 years ago.
    Predator type airplanes have now flown close to 200,000 
flight hours. They have operated over five continents, 
providing situational awareness and defensive strike capability 
to our military by performing missions that cannot be performed 
by manned airplanes. These aircraft, depending on the type, can 
fly for 30 to 50 hours up to altitudes of 50,000 feet. They 
carry cameras and radar systems and weapons and are controlled 
by a ground-based pilot through an electronic satellite link.
    Most aircraft operating over Iraq and Afghanistan are 
controlled by pilots and sensor operators in the Las Vegas, 
Nevada area. Some are controlled locally line-of-sight.
    The numbers of these aircraft and the number of daily 
missions required to be flown in the continental United States 
to prepare pilots and system operators in the global war on 
terrorism has dramatically increased in recent years. The real 
problem is pilots that operate these aircraft must be trained 
in the United States before they deploy. Most of the 200,000 
hours I talked about are flown overseas. But we have to prepare 
people in the United States to get them ready to go.
    Military pilots typically fly in restricted airspace 
adjacent to these bases. Our company pilots, who deploy into 
combat areas, must train at our company airports, which are not 
always in or adjacent to the restricted areas. Our company has 
some 70 deployed personnel in Iraq and Afghanistan and 
elsewhere in various combat areas supporting the U.S. 
Government. They must be trained at our airports and we must 
also fly airplanes between locations in the U.S.
    The capabilities of these aircraft systems are continuously 
being improved with the addition of new sensors that must be 
developed and tested. These operations, often on company-owned 
airplanes, are conducted at company airports. The prop-jet 
Predator B is now flying near daily missions on the U.S. 
southern border for the Department of Homeland Security. The 
success of this operation is so impressive that you can expect 
tremendous growth in the number of Predator Bs operating over 
the borders of the continental U.S. in the near term.
    The U.S. Air Force is standing up 15 new Air National Guard 
Predator and Predator B squadrons throughout the United States. 
These aircraft must fly where they are needed, which may 
include border protection missions. But they will be operating 
in probably 12 different States.
    Now, these activities will dramatically increase the number 
of unmanned aircraft systems that must fly in national 
airspace. The problem is with us now and the solution must be 
provided now. Up until October 1st, 2005, our company operated 
under a COA which allowed us to then file with the FAA and fly. 
It was a workable solution. After October 1st, the FAA 
memorandum stated an intent to only issue COAs to military 
services.
    We met with the FAA and Congressional staff and argued that 
since our company provides pilots to fly military Predators 
over Iraq and Afghanistan in combat, that our company should be 
considered a semi-military organization for the purposes of the 
COA, and under these rules be issued COAs so our company pilots 
can be trained in the U.S. for overseas deployments.
    Our company still does not have a COA, and under the 
current rules cannot obtain one. The Air Force and Army now 
have COAs to fly. The DHS now has a COA and a very small 
operating area approved down in Arizona. And the Navy does not 
yet have a COA, even though we have the Navy Predator B sitting 
on the ramp ready to fly right now, but we don't have a COA to 
fly it.
    The COAs for each user tend to be different, even though 
the aircraft are flying from the same locations. I might add 
that the Predator B flying the U.S. southern border had to fly 
in a confined, military restricted area south of Fort Huachuca 
for the first two months of the operation, able to only 
identify people and material entering the U.S. illegally that 
had the misfortune to select the route into the U.S. that 
happened to underlie a restricted area. The other 2,200 miles 
of border were off limits to the Predator B surveillance 
airplane, since it could not fly in national airspace.
    So in the immediate near term, we need to expand the 
capability of these types of unmanned aircraft systems capable 
of filing and flying an IFR or VFR flight plan to routinely fly 
in national airspace and on IFR flight plans under positive 
control. TCAS or other collision avoidance systems can be 
installed with a few months lead time. In fact, we are in the 
process of developing a TCAS system to go into Predators as we 
speak.
    The FAA must provide COAs in order to fly aircraft of the 
type we produce to any Government agency, including our 
company, who have a need to fly those airplanes to support 
national defense objectives. We need to issue one COA, one COA, 
to our company to operate airplanes in support of all military 
and DHS operations. We need to establish reasonable and 
expanded operating areas over and adjacent to our airports at 
Gray Butte and El Mirage.
    We need to allow company owned and military, DHS and NASA/
NOAA owned airplanes to operate in these areas and also file 
and fly IFR flight plans on support missions. And we need to 
develop a quick response process that will allow our company-
produced unmanned airplane systems to be recognized as 
airworthy for purposes of operating in low density areas in 
national airspace.
    In the long term, realistic operating criteria must be 
developed by the FAA that will allow unmanned aircraft systems 
capable of IFR flight clearance to operate in the NAS clear of 
heavily congested airspace.
    Thank you for the opportunity to provide these comments.
    Mr. Graves. Thank you, Admiral. Mr. Mealy?
    Mr. Mealy. Thank you, Mr. Graves.
    We have submitted our formal testimony previously to the 
Committee. That form includes three documents that I will refer 
to in my summation here. I thank you for allowing us to present 
this morning.
    The Academy of Model Aeronautics has been in existence 
since 1936 and has grown to represent more than 170,000 members 
nationwide who participate in the sport of building and flying 
model aircraft. Prior to 1936, we were part of the National 
Aeronautics Association through which we were represented to 
the world governing body of sport aviation, the Federation 
Aeronautique Internationale. Since our establishment, we have 
represented our members to the FAI directly.
    The Academy charters over 2,500 clubs and sanctions more 
than 3,000 flying events annually, the largest of which is the 
National Aeromodeling Championships. We are also responsible 
for supporting our national teams, representing the United 
States in world competitions and hosting numerous world 
competitions in this Country on a regular basis. These programs 
and activities have established the United States as a 
recognized leader in the sport of aeromodeling.
    The Academy's mission as a world class association of 
modelers is focused on promotion, development, education and 
advancement of modeling activities. The Academy is also 
dedicated to model aviation as an educational tool for the 
formal classroom as well as the informal after school clubs 
activities and camps. Through the active educational outreach 
program of the Academy, we support classroom teachers and 
leaders of communities who wish to infuse topics of math, 
science and technology with engaging aviation activities.
    Since our inception, we have worked closely with local, 
State and Federal agencies to establish and ensure the high 
level of professionalism and safety that our members exhibit 
and the general public has come to expect in a sport as 
beneficial as building and flying model aircraft. The sports 
spans all socioeconomic boundaries and brings together 
families, friends, communities and even countries in an 
atmosphere of camaraderie, competition, education and 
recreation.
    Building and flying model aircraft develops such important 
life skills as creativity, patience, goal setting and 
perseverance, no matter what age it is entered into. The 
Academy has established a long and cooperative working 
relationship with such Government agencies as the Federal 
Communications Commission, the Federal Aviation Administration, 
the Transportation Security Administration, to name a few. 
These relationships and interactions have demonstrated the 
valuable resources and talents possessed by the Academy and the 
Academy's willingness to utilize those resources and talents in 
a meaningful resolution to provide for the preservation of this 
sport, and for the benefit of future generations.
    In 1972, the Academy realized the need for guidance for 
modelers. ``FAA was interested in the fact that AMA had 
proposed safety code which could be utilized as a set of 
standards for addressing the operation of model aircraft within 
the national airspace system.'' That is when the original 
National Model Aircraft Safety Code was adopted, an historic 
event.
    In addition, and as an example of cooperation and joint 
effort between the Academy and the FAA, an advisory circular 
titled ``Model Aircraft Operating Standards'' was created in 
July of 1972, designated AC-9134 and later revised in June of 
1981 as AC-9157 for the purpose of outlining and encouraging 
voluntary compliance with safety standards for model aircraft 
operators.
    I am before you today to speak on behalf of the AMA and its 
members, to preserve our privilege to operate in the National 
Airspace System, a system which is being asked to make room for 
the burgeoning UAV community and the vehicles they are creating 
for commercial and military purposes. It is not the intent of 
the Academy to in any way impede such development, evolution 
and acceptance. We are fully aware of the market and utility of 
such vehicles in enhancing the lives of us all.
    We do, however, note that because of the superficial 
similarities between model aircraft and UAVs the potential does 
exist to look at them as one group. They may look the same, but 
they are definitely different. And that difference is not in 
their appearance, but grounded solidly in their intended use.
    The focus of the AMA is on recreation, sport and 
competition, activities that are available to model aviation 
participants. Our 70 years of overseeing this sport speaks 
highly of the ability of the Academy and its members to 
continue to operate effectively in a cooperative manner with 
related governmental and non-governmental agencies. Model 
airplanes may have been a huge contributing factor in the 
development of UAVs, but model airplanes are still model 
airplanes, fulfilling their intended purpose of recreation, 
sport and competition, as they have for decades.
    Our request to this Committee is that model airplanes be 
permitted to continue operating within the National Airspace 
System as we have for more than years, as we commit to 
tirelessly working with all pertinent Government agencies and 
in particular, the FAA, as we have always, to guarantee the 
safe and sound operation of model aircraft in this Country. We 
request that model aviation not be innocently sucked into a 
black hole of regulation, a place in which, based on its long 
and successful history, it does not deserve to be.
    Thank you for your understanding and consideration in this 
very important matter. I look forward to providing answers to 
any questions you may have. Thank you.
    Mr. Graves. Thank you.
    Can you all, and I guess it's directed to everyone, I would 
be very interested in ultimately what we are looking at, how 
far we are going to go with this. Obviously the commercial 
applications of UAVs are incredible. There is a lot of things 
that can be done out there, which concerns me a little bit as a 
pilot, which is the reason for this hearing.
    But I will direct it to, and we will start with you, Dr. 
Owen, what ultimately are we going to be seeing? I think in 
your testimony we saw that already in the world we are seeing 
crop dusting operations and we already know that things are 
going on with the military and INS, things like that. But I'm 
talking about commercial operations. What are we ultimately 
looking at?
    Dr. Owen. I am told by my engineering buddies that for a 
million dollars they could convert a Boeing 747 into a UAV for 
cargo operations. I can't verify those numbers exactly, but 
they would say that that is certainly within the realm of 
possibility.
    We held a conference on the commercialization of unmanned 
aviation at Embry-Riddle last October. We will hold a second 
one next March. And one of the questions we asked was, how much 
or how willing would people be to commit their lives to a 
robot, to an automated system. We had a historian give a very 
good paper, his point was, looking back historically is that 
with the right kind of performance and the right kind of 
publicity, people will put their lives in the hands of 
machines.
    So I guess I am one of those people who say it is in the 
realm of possibility that we could see passenger aircraft 
flying somewhere out there some time in the future, not with me 
on board, but without pilots. Whether or not we would ever get 
social permission to go that far, I don't know.
    More to the point now, though, is that I think, in fact, I 
know, there are literally hundreds of people out there who are 
either already performing commercial operations outside the 
bounds of regulation, generally without insurance, but who are 
more than ready to do so. So as you point out, this could be, I 
think particularly at the low end of the short term, it is a 
large industry waiting to be born. In fact, it is already born 
to some degree.
    Where we will go in the long run depends on a lot of 
essentially non-technological issues, sociology, politics, 
economics, business, human nature and so forth, that have not 
been well explored. So I don't know the ultimate answer.
    Mr. Graves. Anyone else? Admiral?
    Admiral Cassidy. We have actually been involved to some 
level in forest fire monitoring with these airplanes. I don't 
know all the details, but I know we had Predators deployed down 
in the Louisiana area for Katrina and also in Texas. I don't 
think they were ever flown because of this National Airspace 
problem.
    But the people that own these airplanes, in this case the 
U.S. Air Force, felt that they could contribute and they moved 
the airplanes down there but never got to use them. So there is 
a lot of potential out there. I think if we move faster that we 
are moving on this problem that we will get a lot of use out of 
these airplanes.
    Mr. Graves. Mr. Heinz?
    Mr. Heinz. I think as in any embryonic industry the 
applications are limited only by our imagination at the moment. 
But some of the near term applications that come to mind, 
probably one of the most promising would be, since these 
systems can operate, let's say, in near space for very long 
periods of time, they could potentially serve as communications 
satellites for all practical purposes, not necessarily 
replacing space-based satellites but certainly complementing 
them and filling in gaps and allowing that last mile problem to 
be fixed.
    Someone mentioned unmanned cargo. That is certainly in the 
realm of possibility out in the future. There are many other 
commercial applications that have already been mentioned.
    So it is embryonic, it is waiting to be unleashed. Only 
time will tell exactly where the market forces take us.
    Mr. Cebula. One of the big issues, and I think the 
Subcommittee has done a great job in bringing the issue to the 
forefront, because I don't know that most people in civil 
aviation have really thought about what may be the future for 
UAVs or what's even the current reality. So this is a very good 
start.
    But there are some really significant issues and ones that 
really concern us, which is, the Customs continued desire, and 
we certainly can't fault them for what they are attempting to 
do, but it all requires temporary flight restrictions or, in 
the case of year-long flight restrictions. And when they are 
talking about the entire southern border, and I think he also 
alluded to, the previous witness alluded to Canada, in that 
order.
    That could have a very significant impact on aviation. I 
think one of the things that has to happen is that the FAA must 
have a regulatory framework for the operators of UAVs to know 
what it is that they have to meet.
    Mr. Graves. Well, this may be a question that is more 
appropriate with the last panel, but I will ask it, because, 
Admiral Cassidy, you brought it up VFR versus IFR. How often 
are flight plans filed VFR as opposed to IFR? Can you tell me 
that, or do you know?
    Admiral Cassidy. Well, when we transit any place in the in 
the Predator, the Predator B, it's typically on an IFR flight 
plan at high altitude, above 18,000 positive control. The pilot 
is talking to an FAA controller the entire time. He takes 
vectors just like the airliner in front and behind him are 
doing. And they fit, the controller really doesn't even know 
it's an unmanned airplane. He is talking to an instrument rated 
pilot who can follow his direction. We have never had a problem 
with it.
    Now, VFR, we really don't transit VFR. We always go IFR. 
And that is the way I think we ought to be doing this, under 
positive control.
    Mr. Graves. VFR is what I am worried about. If you are 
loitering over an area or whatever the case may be, and VFR is 
what I am worried about more than anything else. You are 
obviously going to be changing altitudes, you are going to be 
moving, it is just, that is what I worry about, I guess.
    When you talk about restricted areas, and using those areas 
to train, are you looking at, I mean, what would you ultimately 
like to see, more restricted areas? Or my belief is, we have 
restricted areas out there for military personnel to train in. 
That is what they are set up for. We as regular pilots, private 
pilots, are supposed to stay out of those restricted areas.
    Are you looking at, or would you like to see more 
restricted areas or access to those restricted areas for your 
company, that is trying to train pilots and obviously having a 
problem with that, trying to get that access?
    Admiral Cassidy. The airports we operate and own are within 
about 20 miles of the Edwards restricted area. When we do 
operate at Edwards, we have to pay a tremendous amount of money 
by the hour to use the restricted area. So to me, that is not 
very desirable.
    Plus, the rules for using it and the oversight border on, I 
don't want to say the word, but it is extremely complicated. I 
would prefer we didn't have to use restricted areas. I would 
prefer we have temporary flight restrictions. Any time we are 
operating, put a NOTAM out. If we had TCAS in the airplanes, 
that is a step forward. I would even go so far as to add 
another camera gimble to the airplane that you could use to 
rotate 360 degree continuously to see and be seen.
    I fly a KingAir. I can see about this much in front of me. 
I can't see anything behind me or above me. If you have a 
camera gimble on these unmanned airplanes that is rotating, you 
can see a lot more than the typical commercial or general 
aviation pilot can see. So I just think we need to get a little 
more aggressive in what we are asking the UAV operators to do 
and let's get on and do it.
    Mr. Graves. Personally, I would rather not have the TFRs. I 
would rather have you in a restricted space that is just yours 
and we will stay out of it and leave your training to that. But 
that is a personal opinion, I guess, or what I would think. I 
am a little concerned about it. I understand the use. I 
understand how important it is, and I know it is doing 
wonderful things in Afghanistan and Iraq. I can see, I am a 
little frustrated by the fact that it would cost so much to 
train a pilot that is going to be doing military operations. If 
it is commercial operation and you are training somebody for 
commercial, I can see a little bit different, obviously a 
difference there. Maybe we need to set something up for that.
    I do have a question for Mr. Mealy. This is, what right 
now, and I know you sanction clubs and you sanction flying. I 
know there is a lot of flying that goes on. For the most part, 
when you are talking about model airplanes, it is all line of 
sight. I used to do that, radio controlled, in our city, used 
to do a lot of it. What are the restrictions right now with the 
use of, and I am curious, because I know in my home town, a lot 
of the guys that fly RC, they come out to the airport and they 
use the airport. If somebody is flying, they pretty well shut 
down.
    What is the restriction right now? I know with your 
organization, you obviously have to have a field for insurance 
purposes and that sort of thing. But what is the restriction on 
use of a public use airport?
    Mr. Mealy. At the present time there is no restriction. If 
you refer to the AFD, there are approximately 150 general or 
public use aircraft airports that in their note section of that 
document report model aircraft activity upon their premises. 
What we do is encourage safety procedures, the following of the 
National Model Aircraft Safety Code, and the agreement and 
consensus of both parties.
    In other words, the club has to be appreciating the 
activity of full scale pilots and vice versa. There has to be a 
common agreement between the tenants of that airport, the users 
of that airport, both full scale and modeling, that those 
activities can happen safely without compromising the safety or 
utility of that general aviation airport.
    Mr. Graves. I certainly recognize the difference between 
the AMA and what you all are doing. And obviously what we are 
talking about here with UAVs, it is a completely different 
situation. I know you all want to be kept out of any possible 
restrictions that might be placed out there. I hope that is the 
case.
    Mr. Mealy. On the other hand, Mr. Graves, if I may, I also 
want it to be known that understanding the complexity that 
seems to be entering into the National Airspace System, we are 
willing to work with the responsible agencies, so that we can 
all benefit from the use of the airspace system and maintain 
that same level of safety and utility that we have all become 
used to.
    Mr. Graves. Absolutely.
    I do not have any more questions. We will keep the record 
open for two weeks to allow members to submit questions for the 
record and accept any additional written testimony. I might 
point out that all the statements made by the witnesses and the 
members will be placed in the record in their entirety.
    I do appreciate you all coming here. This is an extremely 
interesting subject, something that is dear to my heart as a 
pilot and it concerns me. I am excited about the potential, but 
it concerns me. More traffic in the airspace, particularly 
traffic that doesn't have somebody sitting in the cockpit, 
concerns me a lot. Hopefully we can work something out and take 
a look at this as it continues to develop and air traffic 
continues to develop.
    Thank you all for being here. This hearing is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8275.001
    
    [GRAPHIC] [TIFF OMITTED] T8275.002
    
    [GRAPHIC] [TIFF OMITTED] T8275.003
    
    [GRAPHIC] [TIFF OMITTED] T8275.004
    
    [GRAPHIC] [TIFF OMITTED] T8275.005
    
    [GRAPHIC] [TIFF OMITTED] T8275.006
    
    [GRAPHIC] [TIFF OMITTED] T8275.007
    
    [GRAPHIC] [TIFF OMITTED] T8275.008
    
    [GRAPHIC] [TIFF OMITTED] T8275.009
    
    [GRAPHIC] [TIFF OMITTED] T8275.010
    
    [GRAPHIC] [TIFF OMITTED] T8275.011
    
    [GRAPHIC] [TIFF OMITTED] T8275.012
    
    [GRAPHIC] [TIFF OMITTED] T8275.013
    
    [GRAPHIC] [TIFF OMITTED] T8275.014
    
    [GRAPHIC] [TIFF OMITTED] T8275.015
    
    [GRAPHIC] [TIFF OMITTED] T8275.016
    
    [GRAPHIC] [TIFF OMITTED] T8275.017
    
    [GRAPHIC] [TIFF OMITTED] T8275.018
    
    [GRAPHIC] [TIFF OMITTED] T8275.019
    
    [GRAPHIC] [TIFF OMITTED] T8275.020
    
    [GRAPHIC] [TIFF OMITTED] T8275.021
    
    [GRAPHIC] [TIFF OMITTED] T8275.022
    
    [GRAPHIC] [TIFF OMITTED] T8275.023
    
    [GRAPHIC] [TIFF OMITTED] T8275.024
    
    [GRAPHIC] [TIFF OMITTED] T8275.025
    
    [GRAPHIC] [TIFF OMITTED] T8275.026
    
    [GRAPHIC] [TIFF OMITTED] T8275.027
    
    [GRAPHIC] [TIFF OMITTED] T8275.028
    
    [GRAPHIC] [TIFF OMITTED] T8275.029
    
    [GRAPHIC] [TIFF OMITTED] T8275.030
    
    [GRAPHIC] [TIFF OMITTED] T8275.031
    
    [GRAPHIC] [TIFF OMITTED] T8275.032
    
    [GRAPHIC] [TIFF OMITTED] T8275.033
    
    [GRAPHIC] [TIFF OMITTED] T8275.034
    
    [GRAPHIC] [TIFF OMITTED] T8275.035
    
    [GRAPHIC] [TIFF OMITTED] T8275.036
    
    [GRAPHIC] [TIFF OMITTED] T8275.037
    
    [GRAPHIC] [TIFF OMITTED] T8275.038
    
    [GRAPHIC] [TIFF OMITTED] T8275.039
    
    [GRAPHIC] [TIFF OMITTED] T8275.040
    
    [GRAPHIC] [TIFF OMITTED] T8275.041
    
    [GRAPHIC] [TIFF OMITTED] T8275.042
    
    [GRAPHIC] [TIFF OMITTED] T8275.043
    
    [GRAPHIC] [TIFF OMITTED] T8275.044
    
    [GRAPHIC] [TIFF OMITTED] T8275.045
    
    [GRAPHIC] [TIFF OMITTED] T8275.046
    
    [GRAPHIC] [TIFF OMITTED] T8275.047
    
    [GRAPHIC] [TIFF OMITTED] T8275.048
    
    [GRAPHIC] [TIFF OMITTED] T8275.049
    
    [GRAPHIC] [TIFF OMITTED] T8275.050
    
    [GRAPHIC] [TIFF OMITTED] T8275.051
    
    [GRAPHIC] [TIFF OMITTED] T8275.052
    
    [GRAPHIC] [TIFF OMITTED] T8275.053
    
    [GRAPHIC] [TIFF OMITTED] T8275.054
    
    [GRAPHIC] [TIFF OMITTED] T8275.055
    
    [GRAPHIC] [TIFF OMITTED] T8275.056
    
    [GRAPHIC] [TIFF OMITTED] T8275.057
    
    [GRAPHIC] [TIFF OMITTED] T8275.058
    
    [GRAPHIC] [TIFF OMITTED] T8275.059
    
    [GRAPHIC] [TIFF OMITTED] T8275.060
    
    [GRAPHIC] [TIFF OMITTED] T8275.061
    
    [GRAPHIC] [TIFF OMITTED] T8275.062
    
    [GRAPHIC] [TIFF OMITTED] T8275.063
    
    [GRAPHIC] [TIFF OMITTED] T8275.064
    
    [GRAPHIC] [TIFF OMITTED] T8275.065
    
    [GRAPHIC] [TIFF OMITTED] T8275.066
    
    [GRAPHIC] [TIFF OMITTED] T8275.067
    
    [GRAPHIC] [TIFF OMITTED] T8275.068
    
    [GRAPHIC] [TIFF OMITTED] T8275.069
    
    [GRAPHIC] [TIFF OMITTED] T8275.070
    
    [GRAPHIC] [TIFF OMITTED] T8275.071
    
    [GRAPHIC] [TIFF OMITTED] T8275.072
    
    [GRAPHIC] [TIFF OMITTED] T8275.073
    
    [GRAPHIC] [TIFF OMITTED] T8275.074
    
    [GRAPHIC] [TIFF OMITTED] T8275.075
    
    [GRAPHIC] [TIFF OMITTED] T8275.076
    
    [GRAPHIC] [TIFF OMITTED] T8275.077
    
    [GRAPHIC] [TIFF OMITTED] T8275.078
    
    [GRAPHIC] [TIFF OMITTED] T8275.079
    
    [GRAPHIC] [TIFF OMITTED] T8275.080
    
    [GRAPHIC] [TIFF OMITTED] T8275.081
    
    [GRAPHIC] [TIFF OMITTED] T8275.082
    
    [GRAPHIC] [TIFF OMITTED] T8275.083
    
    [GRAPHIC] [TIFF OMITTED] T8275.084
    
    [GRAPHIC] [TIFF OMITTED] T8275.085
    
    [GRAPHIC] [TIFF OMITTED] T8275.086
    
    [GRAPHIC] [TIFF OMITTED] T8275.087
    
    [GRAPHIC] [TIFF OMITTED] T8275.088
    
    [GRAPHIC] [TIFF OMITTED] T8275.089
    
    [GRAPHIC] [TIFF OMITTED] T8275.090
    
    [GRAPHIC] [TIFF OMITTED] T8275.091
    
    [GRAPHIC] [TIFF OMITTED] T8275.092
    
    [GRAPHIC] [TIFF OMITTED] T8275.093
    
    [GRAPHIC] [TIFF OMITTED] T8275.094
    
    [GRAPHIC] [TIFF OMITTED] T8275.095
    
    [GRAPHIC] [TIFF OMITTED] T8275.096
    
    [GRAPHIC] [TIFF OMITTED] T8275.097
    
    [GRAPHIC] [TIFF OMITTED] T8275.098
    
    [GRAPHIC] [TIFF OMITTED] T8275.099
    
    [GRAPHIC] [TIFF OMITTED] T8275.100
    
    [GRAPHIC] [TIFF OMITTED] T8275.101
    
    [GRAPHIC] [TIFF OMITTED] T8275.102
    
    [GRAPHIC] [TIFF OMITTED] T8275.103
    
    [GRAPHIC] [TIFF OMITTED] T8275.104
    
    [GRAPHIC] [TIFF OMITTED] T8275.105
    
    [GRAPHIC] [TIFF OMITTED] T8275.106
    
    [GRAPHIC] [TIFF OMITTED] T8275.107
    
    [GRAPHIC] [TIFF OMITTED] T8275.108
    
    [GRAPHIC] [TIFF OMITTED] T8275.109
    
    [GRAPHIC] [TIFF OMITTED] T8275.110
    
    [GRAPHIC] [TIFF OMITTED] T8275.111
    
    [GRAPHIC] [TIFF OMITTED] T8275.112
    
    [GRAPHIC] [TIFF OMITTED] T8275.113
    
    [GRAPHIC] [TIFF OMITTED] T8275.114
    
    [GRAPHIC] [TIFF OMITTED] T8275.115
    
    [GRAPHIC] [TIFF OMITTED] T8275.116
    
    [GRAPHIC] [TIFF OMITTED] T8275.117
    
    [GRAPHIC] [TIFF OMITTED] T8275.118
    
    [GRAPHIC] [TIFF OMITTED] T8275.119
    
    [GRAPHIC] [TIFF OMITTED] T8275.120
    
    [GRAPHIC] [TIFF OMITTED] T8275.121
    
    [GRAPHIC] [TIFF OMITTED] T8275.122
    
                                    

</pre></body></html>
